United States Department of State
and the Broadcasting Board of Governors


Office of Inspector
General

Work Plan
        Fiscal Year 2014




   Promoting effective management, accountability,
                 and positive change
Table of Contents

Section                                                                                                                                        Page

Introduction ..................................................................................................................................... 4
OIG Vision ...................................................................................................................................... 5
OIG Mission.................................................................................................................................... 5
OIG Core Values............................................................................................................................. 5
Office of Audits Overview.............................................................................................................. 6
Office of Audits Plans for FY 2014 ................................................................................................ 8
   Audit Directorate ......................................................................................................................... 8
      Contracts and Grants ............................................................................................................... 8
      Financial Management ............................................................................................................ 9
      Human Capital and Infrastructure ......................................................................................... 10
      Information Technology ........................................................................................................ 10
      Security and Intelligence ....................................................................................................... 12
   Middle East Region Operations Directorate ............................................................................. 12
      Iraq ......................................................................................................................................... 12
      Afghanistan ............................................................................................................................ 13
      Pakistan.................................................................................................................................. 14
      Other Locations ..................................................................................................................... 14
Office of Inspections Overview .................................................................................................... 15
Office of Inspections Plans for FY 2014 ...................................................................................... 17
Office of Inspections Special Projects and Areas of Emphasis .................................................... 18
Office of Investigations Overview ................................................................................................ 19
Office of Investigations Areas of Emphasis and Preventive Actions for FY 2014 ..................... 20
OIG Hotline .................................................................................................................................. 20
Abbreviations ................................................................................................................................ 21




                                        Office of Inspector General FY 2014 Work Plan
                                                               3
                                                             UNCLASSIFIED
Introduction

We are pleased to present the Office of Inspector General Work Plan for Fiscal Year 2014. This
publication provides brief descriptions of activities that the Office of Inspector General (OIG)
plans to initiate or continue with respect to the programs and operations of the Department of
State (Department) and the Broadcasting Board of Governors (BBG) in FY 2014.

OIG is dedicated to improving operations, promoting positive change, and detecting and
preventing waste, fraud, abuse, and mismanagement. OIG’s independent role and general
responsibilities are established by the Inspector General Act of 1978, as amended, the Foreign
Service Act of 1980, the Omnibus Diplomatic Security and Antiterrorism Act of 1986, and the
Foreign Affairs Reform and Restructuring Act of 1998.

Specifically, OIG:
   •   Reviews Department and BBG programs and operations to assess their effectiveness and
       use of resources;
   •   Recommends operational, procedural, or policy changes to correct deficiencies;
   •   Ensures effective, efficient operations and compliance with laws and regulations;
   •   Identifies savings through greater efficiency, alternative use of resources, and
       recommended collection actions; and
   •   Investigates and refers cases of wrongdoing for judicial and management action to correct
       waste, fraud, abuse, or mismanagement.

The criteria used by OIG in selecting areas for review include:
   •   Congressional mandates;
   •   Magnitude in dollars or other resources;
   •   Vulnerability to loss through waste, fraud, abuse, or error;
   •   Significance to the achievement of major Department goals;
   •   Importance to employee health and safety;
   •   Particular interest to the Secretary, the Deputy Secretary, an Under Secretary, the White
       House, or the Congress; and
   •   New or changed conditions affecting a program or function.

Our Work Plan for FY 2014 is an evolving document, to be revised and updated as necessary to
ensure that OIG work remains relevant, timely, and responsive to the priorities of the
Department, BBG, the Administration, the Congress, and the foreign affairs community.




                          Office of Inspector General FY 2014 Work Plan
                                                 4
                                        UNCLASSIFIED
OIG Vision

To be a world-class organization promoting effective management, accountability, and positive
change in the Department, Broadcasting Board of Governors, and the foreign affairs community.



OIG Mission

The Office of Inspector General conducts independent audits, inspections, and investigations that
advance the missions of the Department of State and the Broadcasting Board of Governors. OIG
provides leadership to:

   •   Promote integrity, efficiency, effectiveness, and economy;
   •   Prevent and detect waste, fraud, abuse, and mismanagement;
   •   Identify vulnerabilities and recommend constructive solutions;
   •   Offer expert assistance to improve Department and BBG operations;
   •   Communicate timely, useful information that facilitates decision-making and achieves
       measurable gains; and
   •   Keep the Department, BBG, and the Congress fully and currently informed.



OIG Core Values

Credibility: OIG is committed to the highest standards of accountability, independence,
integrity, and professionalism.
Objectivity: OIG’s reports and other products are factual, accurate, informative, and reliable.
Relevance: An independent agent for positive change, OIG provides valuable and timely
service.
Effectiveness: OIG makes a difference. Working cooperatively, in a spirit of teamwork,
internally and with other organizations, enhances OIG’s impact.




                          Office of Inspector General FY 2014 Work Plan
                                                 5
                                        UNCLASSIFIED
Organization Chart




Office of Audits Overview

The Assistant Inspector General for Audits is responsible for leading the Office of Audits, which
is comprised of the Audit Directorate and the Middle East Region Operations (MERO)
Directorate. The Deputy Assistant Inspector General for Audits is responsible for the Audit
Directorate, and is charged with conducting audits and program evaluations of the management
and financial operations of the Department and BBG, including their audited financial
statements, information security, internal operations, and external activities funded by the
Department through contracts or financial assistance. The Deputy Assistant Inspector General for
MERO is responsible for the MERO Directorate and for performing engagements within the
Middle East Region, covering the Department’s Bureaus of Near Eastern Affairs (NEA) and
South and Central Asian Affairs (SCA). The Deputy Assistant Inspector General for MERO is
also responsible for general operation of OIG overseas offices located in Cairo, Egypt; Kabul,
Afghanistan; Islamabad, Pakistan; and Baghdad, Iraq.


                          Office of Inspector General FY 2014 Work Plan
                                                 6
                                       UNCLASSIFIED
Audits and program evaluations determine the degree to which an organization, program, or
function is effectively managed; and the extent to which program results are achieved. The
definition for effectiveness is derived from the agency objectives, operating within the relevant
laws and directives pertaining to the organization or program. The overall objective of an audit is
to identify challenges impeding progress and offer solutions that address the root cause of those
challenges, as well as to identify and report best management practices that can be replicated to
promote operational efficiency and the effective management of all Department and BBG
programs. The audit process includes:

   •   Audit notification. The Office of Audits notifies the agency in writing that an audit is
       scheduled to start.
   •   Entrance conference. After written notification, a meeting is held to inform the agency of
       the purpose, objectives, and scope of the audit and the methodology to be followed.
   •   Audit field work. A detailed evaluation of the program, activity, or function is conducted
       in accordance with Government Accountability Office standards.
   •   Exit conference. At the conclusion of an audit, a formal conference is held with the
       principal post and bureau officials to present the audit results. This meeting provides an
       opportunity for the audit team and the auditee to discuss the audit findings and the
       recommendations offered to address the root cause of the challenges identified.

During the audit, the auditee is kept apprised of audit activities. The Inspector General is given a
detailed briefing before the audit begins and at the conclusion of audit fieldwork. Following the
exit conference, the audit team prepares a draft report, which is vetted for comment and
clearance within OIG. The auditee then typically has up to 15 calendar days to provide
comments on the draft report and to specify whether it agrees with the report’s recommendations
and with the amount of any potential monetary benefits or recoveries. Those comments are
incorporated into the final report. The auditee has 45 days from issuance of the final report to
provide information on actions planned and taken to implement the recommendations.




                           Office of Inspector General FY 2014 Work Plan
                                                  7
                                         UNCLASSIFIED
Office of Audits Plans for FY 2014

Audit Directorate
Contracts and Grants
    Bureau/                                                                                                         Initiate
                      Engagement Title                       Primary Objective                   Justification
  OIG Division                                                                                                     Month/Year
ECA, A,          Audit of J. William Fulbright   To determine whether (1) Fulbright            High Priority       October
AQM/CG           Scholarship                     Scholarship Fund grants are effectively       Performance         2013
                 Fund Grants in                  and efficiently administered and monitored    Goal
                 Selected Countries              within established policies and procedures
                                                 and (2) mechanisms are in place to track      Management-
                                                 and perform remedial actions for identified   Building Civilian
                                                 deficiencies.                                 Capacity
A, AQM,          Department Oversight and        To determine whether the Department is        High Priority       January
Selected         Accountability of Selected      overseeing and holding PIOs accountable       Performance         2014
Bureaus/CG       Grants to                       for complying with the terms and              Goal
                 Public International            conditions of grant agreements and taking
                 Organizations (PIO)             appropriate action when deficiencies are      Management-
                                                 identified.                                   Building Civilian
                                                                                               Capacity
A, AQM,          Audit of Department of          To determine whether the Department’s         High Priority       March
Selected         State Placement and             Grants Officer Representatives have been      Performance         2014
Bureaus/CG       Training of Grants Officer      selected and positioned to successfully       Goal
                 Representatives                 perform their assigned grants
                                                 administration and oversight                  Management-
                                                 responsibilities.                             Building Civilian
                                                                                               Capacity
A, AQM, DRL/CG Audit of the National      To determine whether the National                    Mandatory           June
               Endowment for Democracy Endowment for Democracy had                                                 2014
               for Fiscal Years 2008-2012 adequately accounted for Federal funds               National
                                          and complied with applicable laws,                   Endowment for
                                          regulations, policies, grant terms, and              Democracy Act
                                          conditions.
Domestic         Quality Control Review of       Pursuant to the requirements of Office of Mandatory               August
and Overseas     Selected Single Audits for      Management and Budget (OMB) Circular                              2014
Bureaus,         the Department and BBG          A-133, to provide selected Single Audit Act Single Audit Act
BBG/CG                                           Desk Reviews that may identify questioned
                                                 costs for repayment to the Department and
                                                 BBG.




                               Office of Inspector General FY 2014 Work Plan
                                                      8
                                                   UNCLASSIFIED
Financial Management
    Bureau/                                                                                                     Initiate
                     Engagement Title                     Primary Objective                    Justification
  OIG Division                                                                                                 Month/Year
INL/FM           Audit of the Department of   To determine (1) the full cost of the         GAO Key Issue    December
                 State Counternarcotics       counternarcotics initiatives; (2) whether the                  2013
                 Initiatives                  Department is appropriately using             Countering
                                              performance indicators to measure and         Overseas Threats
                                              report program results; and (3) the
                                              associated cost of achieving the desired
                                              results for each performance indicator
                                              (return on investment).
Department/FM    Department of State          To determine whether the Department is in Mandatory              December
                 Compliance With the          compliance with the Improper Payments                            2013
                 Improper Payments            Information Act, as amended.              Improper
                 Information Act                                                        Payments and
                                                                                        Information Act
BBG/FM           BBG Compliance With the      To determine whether BBG is in                Mandatory          December
                 Improper Payments            compliance with the Improper Payments                            2013
                 Information Act              Information Act, as amended.                  Improper
                                                                                            Payments
                                                                                            Information Act
INL/FM           Review of FY 2013            To authenticate the Department of State       Mandatory          December
                 Accounting and               FY 2013 accounting of drug control funds                         2013
                 Authentication of Drug       and related performance in compliance         ONDCP Circular
                 Control Funds and Related    with ONDCP guidance.
                 Performance Report for the
                 Office of National Drug
                 Control Policy (ONDCP)
Department/FM    Audit of Department of       To determine whether the financial             Mandatory         January
                 State FY 2014 Financial      statements and related notes are                                 2014
                 Statements                   presented fairly, in all material respects, in Chief Financial
                                              conformity with the accounting principles Officers Act
                                              generally accepted in the United States.
BBG/FM           Audit of BBG FY 2014         To determine whether the financial             Mandatory         January
                 Financial Statements         statements and related notes are                                 2014
                                              presented fairly, in all material respects, in Chief Financial
                                              conformity with the accounting principles Officers Act
                                              generally accepted in the United States.
IBWC/FM          Audit of International       To determine whether the financial             Mandatory         May
                 Boundary and Water           statements and related notes are                                 2014
                 Commission’s (IBWC) FY       presented fairly, in all material respects, in Chief Financial
                 2014 Financial Statements    conformity with the accounting principles Officers Act
                                              generally accepted in the United States.
BBG/FM           Audit of Expenditures Made To determine to what extent expenditures        High Priority      July
                 by Radio Free Asia         made by Radio Free Asia were used for           Performance        2014
                                            mission priorities and were supported.          Goal

                                                                                            Strategic
                                                                                            Communications
                                                                                            and Technology



                               Office of Inspector General FY 2014 Work Plan
                                                      9
                                                UNCLASSIFIED
Human Capital and Infrastructure
    Bureau/                                                                                                    Initiate
                     Engagement Title                     Primary Objective                   Justification
  OIG Division                                                                                                Month/Year
MED/HCI          Audit of Foreign Service     To determine to what extent the               High Priority     October
                 Medical Officers Internal    Department’s medical health units are         Performance       2013
                 Controls of Medical          effectively administering internal controls   Goal
                 Supplies, Controlled         over the ordering, receipt, storage, and
                 Substances, and              disposition of medical supplies, controlledManagement-
                 Prescription Drugs at        substances, and prescription drugs.        Building Civilian
                 Selected Posts (Carryover)                                              Capacity
A/HCI            Audit of Department of       To determine to what extent the Expedited High Priority         November
                 State Expedited Logistics    Logistics Program has been effective in    Performance          2013
                 Program (Carryover)          providing posts with easy, fast, and cost- Goal
                                              effective methods to obtain commonly
                                              used items.                                Management-
                                                                                         Building Civilian
                                                                                         Capacity
DS, OBO/HCI      Audit of Residential         To determine whether residential security GAO High Risk         July
                 Security at Selected         measures at selected overseas posts meet                        2014
                 Overseas Posts               current Department guidance and            Countering
                                              standards.                                 Overseas Threats
A/HCI            Audit of Excess Personal     To determine whether excess personal       High Priority        August
                 Property Management at       property at domestic locations is managed Performance           2014
                 Domestic Locations           and disposed of in accordance with         Goal
                                              Federal and Department regulations and
                                              guidelines.                                Management-
                                                                                         Building Civilian
                                                                                         Capacity

Information Technology
    Bureau/                                                                                                     Initiate
                     Engagement Title                     Primary Objective                   Justification
  OIG Division                                                                                                Month/Year
IRM/IT           Audit of Department of       To determine whether the Department has       Program Risk      October
                 State Implementation and     consistently implemented and overseen                           2013
                 Oversight of Active          active directory domain services and
                 Directory                    active directory rights management across
                 (Carryover)                  the enterprise environment.
DS,INR/IT        Audit of the Information     To evaluate the effectiveness of security     Mandatory         February
                 Security Program for         controls and techniques for SCI systems                         2014
                 Sensitive Compartmented      and compliance with Office of the Director
                                                                                      Federal
                 Information (SCI) Systems    of National Intelligence directives and Information
                 at the Department of State   related information security policies,  Security
                                              procedures, standards and guidelines.   Management Act
                                                                                      (FISMA)
IRM/IT           Audit of Department of       To determine whether the Department has Program Risk            April
                 State Data Center Security   instituted security controls that are                           2014
                 and Consolidation Efforts    appropriate to its data centers and has
                 (Carryover)                  made progress with data center
                                              consolidation.




                               Office of Inspector General FY 2014 Work Plan
                                                     10
                                                UNCLASSIFIED
IRM/IT       Audit of the Information     To evaluate the effectiveness of security   Mandatory        March
             Security Program at the      controls and techniques for selected                         2014
             Department of State          information systems and compliance with     Federal
                                          related information security policies,      Information
                                          procedures, standards, and guidelines.      Security
                                                                                      Management Act
                                                                                      (FISMA)
IBWC/IT      Audit of the Information     To evaluate the effectiveness of security   Mandatory        March
             Security Program at the      controls and techniques for selected                         2014
             International Boundary and   information systems and compliance with     Federal
             Water Commission (IBWC)      related information security policies,      Information
                                          procedures, standards, and guidelines.      Security
                                                                                      Management Act
                                                                                      (FISMA)
BBG/IT       Audit of the Information     To evaluate the effectiveness of security   Mandatory        April
             Security Program at the      controls and techniques for selected                         2014
             Broadcasting Board of        information systems and compliance with  Federal
             Governors (BBG)              related information security policies,   Information
                                          procedures, standards, and guidelines.   Security
                                                                                   Management Act
                                                                                   (FISMA)
IRM, DS/IT   Audit of the Department of To determine whether the Department has Program Risk           May
             State Security Program      implemented a security program for                            2014
             for Wireless Networks       wireless networks to guard against cyber-
                                         attacks and unauthorized access.
IRM/IT       Audit of Department of      To determine whether the Department’s     High Priority       July
             State System Development System Development Life Cycle (SDLC)         Performance         2014
             Life Cycle (SDLC) Process policies and procedures adequately          Goal
             (Carryover)                 address Federal requirements and
                                         information technology best practices.    Management-
                                                                                   Building Civilian
                                                                                   Capacity
IRM, DS/IT   Audit of Department of      To determine whether the Office of Chief High Priority        September
             State Contingency Plans for Information Officer has implemented and Performance           2014
             the Information Technology subsequently tested contingency plans      Goal
             Enterprise System           across the Department’s information
                                         technology enterprise system to ensure    Management-
                                         operability during an interruption.       Building Civilian
                                                                                   Capacity




                           Office of Inspector General FY 2014 Work Plan
                                                 11
                                            UNCLASSIFIED
Security and Intelligence
    Bureau/                                                                                                          Initiate
                     Engagement Title                        Primary Objective                    Justification
  OIG Division                                                                                                      Month/Year
DRL, INL,CSO,    Audit of Department of          To determine to what extent the                High Priority       February
GCJ/SI           State Integration of Security   Department has progressed in integrating       Performance         2014
                 and Justice Sector              security and justice sector assistance and     Goal
                 Assistance for the Merida       has linked Merida Initiative assistance to
                 Initiative                      development by emphasizing host nation’s       Democracy, Good
                 (Carryover)                     ownership of programs.                         Governance, and
                                                                                                Human Rights
ISN, CT/SI       Audit of Department of          To determine whether the Department has        High Priority       February
                 State Administration of         implemented internal controls to effectively   Performance         2014
                 Nonproliferation and Threat     monitor and measure the results of             Goal
                 Reduction Programs              nonproliferation and threat reduction
                 (Carryover)                     assistance concerning weapons of mass          Global Security-
                                                 destruction.                                   Nonproliferation
ISN /SI          Audit of Department of          To determine to what extent the                High Priority       August
                 State Assistance to Foreign     Department’s deployment of detection           Performance         2014
                 Export Control and              equipment and training assistance to           Goal
                 Enforcement Agencies            foreign export control and enforcement
                                                 agencies has achieved desired results in       Global Security-
                                                 combating the proliferation of advanced        Nonproliferation
                                                 conventional weapons.
CT/SI            Audit of Department of          To determine to what extent the                High Priority       September
                 State Terrorist Screening       Department has strengthened its                Performance         2014
                 and Interdiction Programs       screening capabilities to detect terrorist     Goal
                                                 and secure borders.
                                                                                                Terrorist Related
                                                                                                Information
                                                                                                Sharing



Middle East Region Operations Directorate
Iraq
    Bureau/                                                                                                          Initiate
                     Engagement Title                        Primary Objective                    Justification
  OIG Division                                                                                                      Month/Year
Embassy          Audit of Department of          To determine whether the Department is         High Priority       October
Baghdad,         State Management of             effectively managing the medical               Performance         2013
NEA, MED,        Medical Operations              operations contract in Iraq.                   Goal
AQM/MERO         Supporting Personnel
                 Assigned to Iraq                                                               Iraq
                 (Carryover)
Embassy          Audit of Administration of      To determine whether the Department is    High Priority            October
Baghdad,         the Residual Iraq               properly administering the completion and Performance              2013
NEA/MERO         Reconstruction Projects         turnover of the residual U.S. Government- Goal
                                                 funded Iraq reconstruction projects.
                                                                                           Iraq




                               Office of Inspector General FY 2014 Work Plan
                                                     12
                                                   UNCLASSIFIED
    Bureau/                                                                                                   Initiate
                     Engagement Title                     Primary Objective                  Justification
  OIG Division                                                                                               Month/Year
Embassy          Audit of Department of    To determine whether the Department is          High Priority     April
Baghdad, DS,     State Management of the   effectively managing the WPS Task Order         Performance       2014
AQM/MERO         Worldwide Protective      for Erbil and Basrah.                           Goal
                 Services (WPS) Task Order
                 for Erbil and Basrah                                                      Iraq
Embassy          Audit of the Baghdad Life    To determine whether the Department is       High Priority     September
Baghdad, NEA,    Support Services (BLISS)     effectively managing the BLISS contract.     Performance       2014
AQM/MERO         Contract                                                                  Goal

                                                                                           Iraq



Afghanistan
    Bureau/                                                                                                   Initiate
                     Engagement Title                     Primary Objective                  Justification
  OIG Division                                                                                               Month/Year
AQM, SCA, INL,   Audit of Closeout Process    To determine whether the Department is       High Priority     November
Embassy Kabul    for Contracts Supporting     closing Afghanistan-related contracts in     Performance       2013
/MERO            the U.S. Mission in          accordance with Federal and Department       Goal
                 Afghanistan                  guidance.
                 (Carryover)                                                               Afghanistan
SCA, Embassy     Audit of Implementation of To determine whether the Department is         High Priority     November
Kabul/MERO       the Department of State       effectively implementing its Afghanistan    Performance       2013
                 Plan for the Transition From Transition plan.                             Goal
                 a Military-Led to a Civilian-
                 Led Mission in Afghanistan                                                Afghanistan
Embassy Kabul, Audit of Bureau of             To determine whether INL is achieving        High Priority     January
SCA, INL/MERO International Narcotics and     intended and sustainable results through     Performance       2014
               Law Enforcement Affairs        its Counternarcotics Programs in             Goal
               (INL) Counternarcotics         Afghanistan. (Second in a series of audits
               Programs in Afghanistan        to be conducted on the Counternarcotics      Afghanistan
                                              Programs in Afghanistan.)
SCA, Embassy     Audit of Property            To determine whether U.S. Mission            High Priority     May
Kabul/MERO       Accountability at U.S.       Afghanistan has adequate controls in         Performance       2014
                 Mission Afghanistan          place over Embassy property to ensure        Goal
                                              that property is accurately recorded,
                                              monitored, and dispositioned.                Afghanistan
SCA, INL/MERO    Audit of the Aviation        To determine whether the Aviation            High Priority     July
                 Working Capital Fund –       Working Capital Fund for Afghanistan is      Performance       2014
                 Afghanistan Cost Center      effectively administered to ensure that      Goal
                                              costs and fees are distributed in an
                                              equitable manner.                            Afghanistan




                               Office of Inspector General FY 2014 Work Plan
                                                     13
                                                UNCLASSIFIED
Pakistan
    Bureau/                                                                                                      Initiate
                      Engagement Title                     Primary Objective                   Justification
  OIG Division                                                                                                  Month/Year
PM, Embassy       Audit of Administration and   To determine the effectiveness of the        High Priority      October
Islamabad, SCA    Oversight of the Pakistan     Department’s administration and oversight    Performance        2013
/MERO             Counterinsurgency             of the programs and projects funded by       Goal
                  Capability Fund               the Pakistan Counterinsurgency Capability
                  (Carryover)                   Fund.                                        Pakistan
Embassy         Audit of Construction of the To determine whether the Department is High Priority               March
Islamabad, SCA, New Embassy Compound - effectively administering the construction Performance                   2014
OBO/MERO        Islamabad                    contracts for the New Embassy Compound Goal
                                             in Islamabad.
                                                                                    Pakistan
Embassy         Audit of Bureau of              To determine whether the Bureau of           High Priority      April
Islamabad, SCA, International Narcotics and     International Narcotics and Law              Performance        2014
INL/MERO        Law Enforcement Affairs         Enforcement Affairs is achieving intended    Goal
                (INL) Counternarcotics          and sustainable results through its
                Programs in Pakistan            Counternarcotics Programs in Pakistan.       Pakistan

Other Locations
    Bureau/                                                                                                      Initiate
                      Engagement Title                     Primary Objective                   Justification
  OIG Division                                                                                                  Month/Year
PRM, NEA, EUR, Audit of Department of     To determine the Department’s              High Priority   October
IO/MERO        State Assistance to Syrian effectiveness in managing and              Performance     2013
               Refugees                   coordinating the humanitarian response for Goal
                                          Syrian refugees.
                                                                                     Democracy, Good
                                                                                     Governance,
                                                                                     Human Rights
NEA,              Audit of the Middle East      To determine whether the Department’s        High Priority      October
MEPI/MERO         Partnership Initiative        administration and oversight of the Middle   Performance        2013
                  (Carryover)                   East Partnership Initiative has been         Goal
                                                effective and whether the Program is
                                                achieving its stated objectives.             Democracy, Good
                                                                                             Governance,
                                                                                             Human Rights
PM, NEA, SCA,     Audit of the Conventional     To determine whether the Bureau of           High Priority      April
Selected          Weapons Destruction           Political-Military Affairs is achieving      Performance        2014
Embassies         Program for Countries         intended results through its Conventional    Goal
/MERO             Under the Bureaus of Near     Weapons Destruction Program.
                  Eastern Affairs and South                                                  Global Security-
                  and Central Asian Affairs                                                  Nonproliferation




                                Office of Inspector General FY 2014 Work Plan
                                                      14
                                                  UNCLASSIFIED
Office of Inspections Overview

Inspections are conducted to provide overseas missions and Department bureaus, as well as BBG
organizations, with assessments of mission leadership, policy implementation, resource
management, and management controls. The inspection is a comprehensive and independent
review intended to: assess effectiveness of programs; propose potential efficiencies and cost-
saving measures; encourage self-evaluation and correction; provide counseling to employees,
including ambassadors, bureau assistant secretaries, and BBG leadership; and identify problems
and recommend solutions. Inspections differ from audits in that inspections normally review an
organization in its entirety, while audits concentrate on a particular function or program that may
cross several organizations.

The Foreign Service Act of 1980 requires that an inspection of each Foreign Service post and
each domestic bureau be conducted at least once every 5 years, although this requirement is
routinely waived every year by Congress. OIG’s methodology for investing its resources
includes a risk management approach to help prioritize projects and to ensure that our
discretionary inspections cover high-cost programs, key management challenges, and vital
operations. The OIG retains a quick-reaction capability to address requests made on short notice
by Congress or senior Department officials. Inspection staff also conduct extensive outreach
activities, briefing attendees of FSI courses as well as numerous officers, including ambassadors,
before they depart for post.

The domestic and overseas inspection process includes:

   •   Inspection notification. The Office of Inspections (ISP) notifies the post, office, or bureau
       in writing that an inspection is scheduled.
   •   Survey. An initial phase of the inspection process is information collection from the
       inspected entity and relevant Department bureaus, offices, and Federal agencies with
       which it relates. Each inspected entity completes functional questionnaires covering their
       areas of operations. These responses are used as a guide to review operations prior to the
       arrival of the inspectors. Other questionnaires address service satisfaction and individual
       concerns.
   •   On-site inspection. The inspection team conducts on-site reviews of the post, bureau, or
       office with a focus on three broad areas set forth in the Foreign Service Act of 1980:
       - Policy implementation—whether policy goals and objectives are being effectively
         achieved; whether post operations are in consonance with the foreign policy of the
         United States; whether U.S. interests are being accurately and effectively represented;
         and whether all elements of an office or mission are being adequately coordinated.

       - Resource management—whether resources are being used and managed with
         maximum efficiency, effectiveness, and economy; and whether financial transactions


                           Office of Inspector General FY 2014 Work Plan
                                                 15
                                        UNCLASSIFIED
       and accounts are properly conducted, maintained, and reported. Teams also focus on
       identifying potential efficiencies and cost-saving measures leading to more effective
       use of resources.

    - Management controls—whether the administration of activities and operations meets
      the requirements of applicable laws and regulations; whether internal management
      controls have been instituted to ensure quality of performance and reduce the
      likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
      whether adequate steps for detection, correction, and prevention have been taken. The
      inspectors value counseling as a critically important facet of the review process and
      will seek improvements through the use of this technique as a first course of action.

•   Inspection reports. The inspectors’ findings and recommendations are formalized and
    issued in report format. Inspection reports adhere to the standards set out in the Quality
    Standards for Inspection and Evaluation, as issued by the Council for Inspectors General
    on Integrity and Efficiency, and the Inspectors’ Handbook, as issued by the OIG.
•   Report Review. The inspected entity reviews a field draft of the report and is afforded the
    opportunity to comment. Relevant Washington offices are also provided an opportunity
    to comment. In addition, the draft inspection report is vetted for comment and clearance
    within OIG.
•   Compliance. Each tasked entity must officially respond to all formal recommendations
    in a published report. Recommendations are unresolved until the OIG determines they
    are resolved or closed.
•   Compliance Follow-up reviews. ISP conducts compliance follow-up reviews on some
    posts, offices, and bureaus inspected. These reviews occur 6 to 18 months after the full
    inspection, and are designed to revisit key issues to ensure implementation of
    recommendations.




                       Office of Inspector General FY 2014 Work Plan
                                             16
                                     UNCLASSIFIED
Office of Inspections Plans for FY 2014

Fall Cycle: October – November 2013

                             Compliance
   Bureau/
               Inspection     Follow-up                                Location
    Office
                               Review
EUR                                       Embassy Budapest, Hungary
EUR                                       Embassy Sofia, Bulgaria
NEA                                       Embassy Abu Dhabi, United Arab Emirates
NEA                                       Embassy Manama, Bahrain
WHA                                       Embassy Bridgetown, Barbados
WHA                                       U.S. Interests Section Havana, Cuba
WHA                                       Embassy Panama City, Panama
WHA                                       Embassy San Salvador, El Salvador
BBG                                       Office of Cuba Broadcasting
CSO                                       Bureau of Conflict and Stabilization Operations
EB                                        Bureau of Economic and Business Affairs
                                           United Arab Emirates – Middle East Broadcasting Networks and
BBG                
                                           Voice of America news bureaus


Winter Cycle: February – March 2014

                             Compliance
   Bureau/
               Inspection     Follow-up                                Location
    Office
                               Review
AF                                        Embassy Asmara, Eritrea
AF                                        Embassy Bujumbura, Burundi
AF                                        Embassy Kampala, Uganda
AF                                        Embassy Kigali, Rwanda
NEA                                       Embassy Kabul and Constituent Posts, Afghanistan
WHA                                       Embassy La Paz, Bolivia
WHA                                       Embassy Lima, Peru
BBG                                       Radio Free Afghanistan
ISN                                       Bureau of International Security and Nonproliferation
AVC                                       Bureau of Arms Control, Verification and Compliance
IIP                                       International Information Programs
Remote
Voucher                                   Remote Voucher Processing
Processing
                                           Kabul – Radio Free Europe/Radio Liberty (Radio Free
BBG                                       Afghanistan), Voice of America (VOA Afghanistan) and IBB-
                                           Transmitting sites
BBG                                       Burundi – Voice of America news bureau
BBG                                       Rwanda – Voice of America news bureau




                        Office of Inspector General FY 2014 Work Plan
                                              17
                                      UNCLASSIFIED
Spring Cycle: May – June 2014

                                 Compliance
    Bureau/
                  Inspection      Follow-up                               Location
     Office
                                   Review
AF                                             Embassy Abidjan, Cote d’Ivoire
AF                                            Embassy Bamako, Mali
AF                                            Embassy Niamey, Niger
EUR                                           Embassy Baku, Azerbaijan
EUR                                           Embassy Tbilisi, Georgia
EUR                                           Embassy Yerevan, Armenia
INL                                           Bureau of International Narcotics and Law Enforcement Affairs
DS/IP                                         Bureau of Diplomatic Security, Office of International Programs
CA/VO                                         Bureau of Consular Affairs, Office of Visa Services
                                               Bureau of Information Resource Management, Business
IRM/BMP/SPO           
                                               Management and Planning, Strategic Planning Office
BBG                                           Greenville Transmitting Station – Greenville, North Carolina
                                               Armenia – Radio Free Europe/Radio Liberty and Voice of America
BBG                   
                                               news bureaus
                                               Azerbaijan – Radio Free Europe/Radio Liberty and Voice of
BBG                   
                                               America news bureaus
                                               Georgia – Radio Free Europe/Radio Liberty and Voice of America
BBG                   
                                               news bureaus
BBG                                           Mali – Voice of America news bureau
BBG                                           Niger – Voice of America news bureau




Office of Inspections Special Projects and Areas of Emphasis

The Office of Inspections also conducts targeted reviews based on congressional or Department
requests, vulnerabilities, and concerns about high priority programs or issues. OIG establishes
areas of emphasis for all inspection teams to cover during an inspection cycle or the entire fiscal
year. Findings on the areas of emphasis are analyzed across inspections and allow inspectors to
take a broader look at high priority issues. In some cases, summary reports are issued with
recommendations to address thematic or global problems.

Planned Special Projects and Areas of Emphasis for FY 2014 include:

   •    Executive – Gift Acceptance Tracking
   •    Executive – Chief Of Mission Statements of Assurance on Management Controls
   •    Political/Economic – Reporting in the State Messaging and Archive Retrieval Toolkit
   •    Public Diplomacy – Social Media Guidance and Clearances
   •    Consular – Consular Section Eligible Family Member Employment
   •    Management – Regional Locally Employed Staff Position Classifications


                           Office of Inspector General FY 2014 Work Plan
                                                 18
                                         UNCLASSIFIED
   •     Management – Contracting Officer Representative Activities to Prevent Trafficking In
         Persons on Department Contracts
   •     Information Technology – Information Technology Contract Oversight
   •     Security – Securing Fire Accelerants and other Weapons of Opportunity
   •     Multi-cone – Counterterrorism and Countering Violent Extremism Activities at Missions



Office of Investigations Overview

The Office of Investigations is committed to addressing allegations of fraud and misconduct in
an independent and objective manner, by conducting investigations of criminal, civil, and
administrative violations related to Department and BBG programs and operations, and by
assisting the Department and BBG in preventing and detecting, fraud. OIG’s investigative
activities are largely reactive and occur in locations around the world.

The results of investigations concerning employees or contractors suspected of violating federal
statutes are referred to the Department of Justice for prosecutorial determination. Administrative
violations are referred to the Department's Bureau of Human Resources and Bureau of
Diplomatic Security for independent adjudicative action.

The types of violations investigated by OIG cover a wide range including procurement fraud,
public corruption, embezzlement, false claims and false statements. Chart A below illustrates the
types of cases investigated.


                        Chart A- Types of Cases Investigated
           Procurement Fraud                                                             35%

 False Statements and Claims                                     18%

             Public Corruption                           11%

    Embezzlement and Theft                 5%

        Employee Misconduct                                      18%

       Passport and Visa Fraud                6%

                        Other                   7%

                                 0%      5%        10%     15%   20%     25%     30%   35%     40%



                                 Office of Inspector General FY 2014 Work Plan
                                                       19
                                                UNCLASSIFIED
The Office of Investigations maintains a cooperative relationship with the Office of the
Procurement Executive, to ensure information developed is appropriately shared in furtherance
of administrative remedies such as suspension and/or debarment.



Office of Investigations Areas of Emphasis
and Preventive Actions for FY 2014

The Office of Investigations’ priority areas of investigation are procurement fraud and public
corruption, particularly involving Middle East programs and operations. The Office of
Investigations tends to be reactive in these areas; however, the office also proactively consults
with stakeholders in the Department, the BBG and Congress regarding high-risk areas and
management challenges, and appropriately adjusts investigative priorities. Certain programs and
operations in the Department and the BBG are periodically identified as high priority or of
importance, and investigative resources are concentrated in those areas. In FY 2014 priority will
be given to additional oversight of procurement and other fiscal operations.

The Inspector General is charged with fraud prevention as well as detection. Toward this
objective, the Office of Investigations can issue Fraud Alert Bulletins and Management
Assistance Reports. Fraud Alert Bulletins are issued to all executive directors when an
investigation identifies a systemic weakness that may impact multiple Department bureaus or
offices. Management Assistance Reports are issued when a systemic weakness is identified in a
bureau-specific program or operation. The reports are sent directly to the affected bureau or
office with recommendations for corrective action.

The Office of Investigations also actively participates in an OIG Outreach Program to speak
before a variety of Department groups and training classes in an effort to help employees identify
indicators of fraud that should be referred to OIG. During FY 2013, the Office of Investigations
conducted more than 50 outreach presentations to various Department groups and training
classes involving well over 2,500 Department employees, including new ambassadors.



OIG Hotline

The Office of Investigations also maintains the OIG Hotline, a confidential channel for the
receipt of complaints about violations of law or regulation, fraud, waste, abuse, or substantial and
specific threats to public health and safety. Investigations conducted by OIG criminal
investigators are usually initiated as a result of allegations received from the OIG Hotline, OIG
Audit or Inspection teams, Department or BBG management or employees, Offices of Inspector


                           Office of Inspector General FY 2014 Work Plan
                                                 20
                                        UNCLASSIFIED
General of other agencies, the Congress, or the public. As necessary, the assistance of auditors,
inspectors, and other experts may be enlisted in support of investigative operations.

Complaints to the OIG Hotline have generated numerous successful investigations resulting in
criminal, civil, and administrative sanctions. In FY 2013, the Hotline received approximately
1,500 complaints. OIG recently refocused its Hotline collection and referral processes to more
efficiently identify significant issues. Nevertheless, in FY 2014, OIG expects moderate growth
in the number of Hotline complaints to approximately 1,700. Allegations may be reported to the
Hotline by calling 202-647-3320 or 1-800-409-9926. Written information may be sent to the
oighotline@state.gov or mailed to: Office of Inspector General Hotline, U.S. Department of
State, Post Office Box 9778, Arlington, Virginia 22219-1778.



Abbreviations

The Work Plan refers to the following selected acronyms and abbreviations for terms and titles:

A                       Bureau of Administration
AF                      Bureau of African Affairs
AQM                     Office of Acquisitions Management
AUD                     Office of Audits
BBG                     Broadcasting Board of Governors
CA                      Bureau of Consular Affairs
CPA                     Office of Congressional and Public Affairs
CSO                     Bureau of Conflict and Stabilization Operations
CT                      Coordinator for Counterterrorism
Department              Department of State
DRL                     Bureau of Democracy, Human Rights, and Labor
DS                      Bureau of Diplomatic Security
                        Bureau of Diplomatic Security, Office of Investigations and
DS/ICI/CIF
                        Counterintelligence, Computer Investigations and Forensics Division
                        Bureau of Diplomatic Security, Office of Investigations and
DS/ICI/CR
                        Counterintelligence, Criminal Investigations Division
                        Bureau of Diplomatic Security, Office of Investigations and
DS/ICI/SID
                        Counterintelligence, Special Investigations Division
EAP                     Bureau of East Asian and Pacific Affairs
ECA                     Bureau of Educational and Cultural Affairs
EEB                     Bureau of Economic, Energy, and Business Affairs


                          Office of Inspector General FY 2014 Work Plan
                                                21
                                        UNCLASSIFIED
EUR         Bureau of European and Eurasian Affairs
            Bureau of European and Eurasian Affairs and Bureau of International
EUR-IO/EX
            Organization Affairs Joint Executive Office
EX          Office of the Executive Director
FISMA       Federal Information Security Management Act
FSI         Foreign Service Institute
GCJ         Office of Global Criminal Justice
HR          Bureau of Human Resources
IBWC        International Boundary and Water Commission
IG          Inspector General
INL         Bureau of International Narcotics and Law Enforcement Affairs
INR         Bureau of Intelligence and Research
INV         Office of Investigations
IRM         Bureau of Information Resource Management
ISP         Office of Inspections
ISN         Bureau of International Security and Nonproliferation
KESF        Kabul Embassy Security Force
L           Office of the Legal Advisor
MED         Office of Medical Services
MEPI        Middle East Partnership Initiative
MERO        Middle East Regional Office
NEA         Bureau of Near Eastern Affairs
OBO         Bureau of Overseas Buildings Operations
OGC         Office of General Counsel
OIG         Office of Inspector General
PM          Bureau of Political-Military Affairs
PRM         Bureau of Population, Refugees and Migration
RM          Bureau of Resource Management
SCA         Bureau of South and Central Asian Affairs
SDLC        System Development Life Cycle
SI          Security and Intelligence Division
T           Under Secretary for Arms Control and International Security
WHA         Bureau of Western Hemisphere Affairs




              Office of Inspector General FY 2014 Work Plan
                                    22
                           UNCLASSIFIED
dwidotective Services




                        Office of Inspector General FY 2014 Work Plan
                                              24
                                     UNCLASSIFIED
